Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




LIMITATIONS IN MANUFACTURER
REPORTING OF AVERAGE SALES
PRICE DATA FOR PART B DRUGS




                       Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                         July 2014
                       OEI-12-13-00040
EXECUTIVE SUMMARY: LIMITATIONS IN MANUFACTURER REPORTING OF
AVERAGE SALES PRICE DATA FOR PART B DRUGS
OEI-12-13-00040

WHY WE DID THIS STUDY

Manufacturer-reported average sales prices (ASPs) serve as the basis for most Part B drug
payment amounts. Complete ASP data ensure that payment amounts are accurate and are
reflective of all manufacturer sales prices. Previous Office of Inspector General (OIG) work has
shown that the Centers for Medicare & Medicaid Services (CMS) lacks complete ASP data for
certain drugs because (1) not all manufacturers that are required to report ASPs are doing so and
(2) not all manufacturers of Part B drugs are required to report ASPs. OIG has previously
recommended that CMS consider seeking a legislative change to require all manufacturers of
Part B drugs to submit ASPs. In response, CMS stated that it would be helpful if OIG provided a
full analysis of the policy’s implications.

HOW WE DID THIS STUDY

We compared data in CMS’s background and crosswalk files—the agency’s two ASP-related
files—with two national drug compendia to determine the number of manufacturers that did not
report required ASPs in the third quarter of 2012. We then determined the number of additional
manufacturers that would be required to submit ASPs if reporting requirements were extended to
all manufacturers of Part B drugs. We also identified national drug codes (NDCs) with incorrect
product and pricing information in CMS’s ASP files. Finally, we surveyed CMS officials and
reviewed CMS policies to determine whether the agency has improved ASP collection and
verification processes since the publication of OIG’s prior work.

WHAT WE FOUND

At least one-third of the more than 200 manufacturers of Part B drugs did not submit ASPs for
some of their products in the third quarter of 2012, despite being required to do so.
An additional 45 manufacturers of Part B drugs were not required to report ASPs that quarter.
Furthermore, for a small number of drugs, inaccuracies in CMS’s ASP files may have affected
Medicare payments. Finally, CMS has improved its ASP-related processes and procedures;
however, challenges remain.

WHAT WE RECOMMEND

We recommend that CMS (1) continue to assist OIG in identifying and penalizing manufacturers
that do not meet ASP reporting requirements; (2) seek a legislative change to directly require all
manufacturers of Part B drugs to submit ASPs; (3) ensure the accuracy of product information
for NDCs listed in the background and crosswalk files; and (4) finalize the implementation of
automated ASP-related procedures by using processes related to average manufacturer price as a
model, and subsequently require all manufacturers to submit ASPs through the automated
system. CMS concurred with our first, third, and fourth recommendations, but did not concur
with our recommendation to seek a legislative change.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

           At least one-third of manufacturers did not submit ASPs for some

           of their Part B drugs in the third quarter of 2012, despite being 

           required to do so...............................................................................7 

           At least 45 manufacturers of Part B drugs were not required to
           report ASPs for 443 NDCs in the third quarter of 2012 ..................8 

           For a small number of drugs, inaccuracies in CMS’s ASP files 

           may have affected Medicare payments ..........................................10 

           CMS has improved its ASP-related processes and procedures; 

           however, challenges remain ...........................................................11

Conclusion and Recommendations ............................................................13 

           Agency Comments and Office of Inspector General Response.....16 

Appendixes ................................................................................................17 

           A: 	Descriptions and 2012 Medicare Part B Spending for Sample 

               of 87 High-Expenditure HCPCS Codes...................................17 

           B: 	Detailed Methodology for Identifying Part B Drug NDCs Not

               Listed in the Background File..................................................19 

           C: Agency Comments ...................................................................20 

Acknowledgments......................................................................................23 

                   OBJECTIVES
                   1.	 To determine whether manufacturers reported average sales prices
                       (ASPs) for all Part B drugs in the third quarter of 2012.
                   2.	 To determine the effect on ASP reporting if all manufacturers of Part B
                       drugs were required to submit ASPs.
                   3.	 To assess the validity and accuracy of data contained in the Centers for
                       Medicare & Medicaid Services’ (CMS’s) ASP files.
                   4.	 To determine whether CMS has improved its processes for collecting
                       and analyzing ASPs.

                   BACKGROUND
                   ASPs serve as the basis for most Part B drug payment amounts. However,
                   previous OIG work has shown that not all manufacturers are reporting the
                   required ASP data to CMS.1 Furthermore, because ASP reporting
                   requirements are linked to Medicaid drug rebate agreements, some
                   manufacturers of Part B drugs—i.e., manufacturers that do not have such
                   agreements—are not required to submit ASP data. The nonreporting of
                   ASPs may result in Medicare payment amounts that are inaccurate and not
                   reflective of all manufacturer sales prices.
                   Recent OIG reports recommended that CMS consider seeking a legislative
                   change to require all manufacturers of Part B drugs to submit ASPs. In
                   response to one such report, CMS stated that for a legislative change to be
                   considered, it would be helpful if OIG provided a full analysis of the
                   policy’s implications (e.g., the number of additional drugs for which
                   manufacturers would be reporting ASPs).2
                   Previous OIG work also found issues with the product data compiled by
                   CMS (e.g., potentially inaccurate strengths or package sizes) for certain
                   Part B drugs.3 Inaccurate product data could result in incorrect Medicare
                   payment amounts and incorrect beneficiary coinsurance. Further, OIG
                   found that CMS’s processes for collecting and analyzing ASPs could be
                   improved. For example, unlike the automated system in place to collect
                   average manufacturer price (AMP) data under Medicaid, CMS manually

                   1
                     OIG, Comparison of Average Sales Prices to Widely Available Market Prices for
                   Selected Drugs, OEI-03-10-00280, January 2012. 

                   2
                     OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An

                   Overview of 2010, OEI-03-11-00410, November 2011. 

                   3
                     OIG, Comparison of Second-Quarter 2012 Average Sales Prices and Average 

                   Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter 2012, 

                   OEI-03-13-00100, December 2012. 



Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   1
                   imported ASP data, which could lead to data errors. OIG recommended
                   that CMS develop an automated system for collecting ASP data.4
                   Medicare Part B Coverage and Payment for Prescription Drugs
                   Medicare covers a limited number of outpatient prescription drugs and
                   biologicals (hereinafter referred to as drugs) under its Part B benefit,
                   including injectable drugs used in the treatment of cancer, certain
                   vaccines, oral anticancer drugs, and inhalation drugs used in conjunction
                   with durable medical equipment.5 To obtain payment for Part B drugs,
                   providers submit claims to Medicare contractors using Healthcare
                   Common Procedure Coding System (HCPCS) codes. Each HCPCS code
                   defines the drug’s name and the amount of drug represented by one unit of
                   the code but does not specify manufacturer or package size information.
                   Payments for most Part B drugs are equal to 106 percent of the
                   volume-weighted ASP among all drugs represented by the HCPCS code
                   (or, if lower, the actual charge billed on the claim).6 Medicare
                   beneficiaries are responsible for 20 percent of this amount in coinsurance.7
                   Medicare and its beneficiaries spent $13.6 billion for Part B drugs in 2012.
                   Although Part B paid for more than 700 drug HCPCS codes that year,
                   95 percent of spending was concentrated on just 100 HCPCS codes.
                   Manufacturer Reporting Requirements for ASPs
                   Pursuant to section 1927(b)(3) of the Act, manufacturers with Medicaid
                   rebate agreements must provide CMS with the ASP and sales volume for
                   each of their Part B drugs on a quarterly basis.8 Manufacturers typically
                   report ASPs by national drug code (NDC), an 11-digit code that is divided
                   into three segments identifying (1) the firm that manufactures, distributes,

                   4
                     OIG, Average Sales Prices: Manufacturer Reporting and CMS Oversight,
                   OEI-03-08-00480, February 2010. 

                   5
                     42 CFR § 414.900(b) and Medicare Benefit Policy Manual, ch. 15 § 50; 68 Fed Reg.

                   50428 (August 20, 2003). 

                   6
                     Section 1847A(c) of the Social Security Act (the Act) defines ASP as a manufacturer’s

                   sales of a drug (with certain exceptions) to all purchasers in the United States in a quarter 

                   divided by the number of units of the drug sold by the manufacturer in that same quarter.

                   The ASP is net of any price concessions other than those obtained through the Medicaid 

                   drug rebate program (MDRP).

                   7
                     Section 1847A(b)(1) of the Act. Part B claims dated on or after April 1, 2013, incur 

                   a 2-percent reduction in payment in accordance with the Budget Control Act of 2011 and

                   the American Taxpayer Relief Act of 2012 (i.e., sequestration). This mandatory payment 

                   reduction is applied after the beneficiary’s coinsurance has been determined, resulting in

                   a payment rate for most Part B drugs of 104.3 percent of the volume-weighted ASPs. See 

                   CMS Medicare FFS Provider e-News, Mandatory Payment Reductions in the Medicare 

                   Fee-for-Service (FFS) Program—“Sequestration,” March 8, 2013.

                   8
                     For Federal financial participation to be available for covered outpatient drugs provided

                   under Medicaid, manufacturers must enter into rebate agreements with the Secretary of 

                   Health and Human Services and pay quarterly rebates to State Medicaid agencies. 

                   Sections 1927(a)(1) and (b)(1) of the Act. 



Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   2
                   or repackages the drug product (i.e., the labeler code); (2) the specific
                   strength, dosage form, and formulation of the product; and (3) the
                   product’s package size.9
                   Manufacturers may face civil money penalties (CMPs) or suspension of
                   their rebate agreements if they knowingly provide false information about
                   their ASPs or fail to report ASP data within the required timeframe (i.e.,
                   within 30 days of the close of a quarter).10 OIG has coordinated with CMS
                   to identify manufacturers that do not submit ASP (or AMP) data in a
                   timely fashion and has initiated actions against certain manufacturers that
                   failed to satisfy their submission requirements.
                   CMS Calculation and Publication of Payment Amounts
                   Because payments for Part B drugs are based on HCPCS codes rather than
                   on NDCs and because more than one NDC may meet the definition of a
                   particular HCPCS code, CMS must first “crosswalk” manufacturers’
                   NDCs to their matching HCPCS codes. In addition, because the amount
                   of a drug represented by an NDC may differ from the amount of a drug
                   specified by a HCPCS code, CMS staff often must convert “NDC units” to
                   “HCPCS code units” to determine the amount of the drug contained within
                   a given HCPCS code. Each quarter, CMS publishes a crosswalk file that
                   lists the NDCs matching each Part B drug HCPCS code as well as the
                   number of “NDC units” within the HCPCS code. CMS also develops a
                   nonpublic quarterly ASP “background” file for internal use, which lists the
                   ASPs and number of units sold for all NDCs that meet the definition of
                   each Part B drug HCPCS code paid under the ASP methodology.11
                   CMS performs numerous checks on the data in the background file, and
                   may seek clarification or correction regarding submitted data if the data do
                   not pass CMS’s checks. CMS then determines whether to include the
                   submitted ASP for each NDC in its calculation of the volume-weighted
                   ASP for the HCPCS code.12 Finally, CMS calculates a payment amount by
                   multiplying the volume-weighted ASP by 106 percent.
                   There is a two-quarter lag between the sales period for which ASPs are
                   reported and the effective date of the reimbursement amounts. For

                   9
                     One manufacturer may have multiple labeler codes. Labelers will hereinafter be
                   referred to as “manufacturers.” In addition, a small number of Part B drugs are identified
                   using alternative IDs, which do not necessarily include a labeler code, rather than NDCs.
                   10
                      Sections 1927(b)(3)(C)(i) and (ii) of the Act and 42 CFR § 414.804(a)(5).
                   11
                      A quarterly background file will include an NDC if its ASP has been previously
                   reported by the manufacturer, regardless of whether its ASP was reported in that
                   particular quarter. The background file also contains a few NDCs for which ASPs have
                   not been reported but that CMS contractors have identified to be in the market.
                   12
                      CMS assigns a status indicator in the ASP background file for each NDC that specifies
                   whether the NDC’s ASP was included in the calculation of volume-weighed ASP.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   3
                   example, ASPs reported by manufacturers for the third quarter of 2012
                   served as the basis for first-quarter 2013 payment amounts. CMS posts an
                   ASP payment amount file and an ASP crosswalk file on its Web site in the
                   weeks before the start of the applicable quarter.

                   METHODOLOGY
                   Data Collection
                   Total Part B Expenditures and Utilization. We obtained expenditure and
                   utilization data for all Part B drug HCPCS codes in all quarters of 2012
                   and the first quarter of 2013 from CMS’s Part B Analytics Report (PBAR).
                   ASP Data Files. We obtained from CMS (1) the first-quarter 2013
                   payment amount file; (2) the third-quarter 2012 ASP background file (i.e.,
                   the ASPs on which first-quarter 2013 payment amounts were based) for
                   drugs paid in noninstitutional Part B settings13; and (3) the third-quarter
                   2012 ASP crosswalk file.
                   MDRP-Participating Drug Manufacturer File. We obtained from CMS
                   the list of manufacturers participating in the MDRP in the third quarter of
                   2012 and their associated labeler codes.
                   Drug Compendia. We obtained product information (e.g., strength,
                   package size, and package quantity) for the third quarter of 2012 for all
                   drugs under review from two national drug compendia: Truven Health
                   Analytics’ Red Book and First Databank’s National Drug Data File.
                   External Web Sites and 2012 HCPCS Code Level II Reference Book. We
                   referred to external Web sites, including those of the U.S. Food and Drug
                   Administration (FDA) and individual pharmaceutical manufacturers, as
                   well as the HCPCS code reference book, to confirm product and coding
                   information when there were discrepancies between CMS’s
                   background/crosswalk files and the two national drug compendia.
                   CMS Documents and Interviews with Officials. We surveyed CMS staff in
                   August 2013 and March 2014 and reviewed CMS policies regarding ASP
                   submission procedures. The survey and document review identified
                   whether CMS had automated the data collection process and made other
                   improvements in collecting, entering, and verifying ASP data. We also
                   asked CMS officials regarding challenges they face in improving these
                   processes.

                   13
                     Our analysis does not include drugs paid for under the hospital outpatient prospective
                   payment system, many of which are also paid on the basis of ASPs. CMS publishes a
                   separate ASP file for hospitals. There is substantial overlap in the HCPCS codes listed in
                   both files, and the same ASP data are used to derive payment amounts. We do not
                   believe that including hospital files in our analysis would have affected our findings.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   4
                   Data Analysis
                   Selection of Drugs. We used CMS’s first-quarter 2013 payment amount
                   file to identify all 539 HCPCS codes that were paid on the basis of ASPs
                   that quarter.14 Because there is a two-quarter lag between the sales period
                   for which ASPs are reported and the effective date of the reimbursement
                   amounts, the ASPs reflected sales from the third quarter of 2012. We also
                   obtained from CMS’ third-quarter 2012 ASP background file a list of all
                   4,330 active NDCs that CMS associated with the 539 HCPCS codes.
                   We selected a purposive sample of drugs for a portion of our analysis. We
                   used PBAR to select 87 high-expenditure Part B drug HCPCS codes that
                   constituted 86 percent of total Part B spending in 2012 (see Appendix A).15
                   Identifying NDCs Listed in the Background File with Unreported ASPs.
                   We examined the status indicator variable for all 4,330 NDCs listed in the
                   third-quarter 2012 background file to identify NDCs for which
                   manufacturers did not submit ASP data. We matched the labeler codes for
                   these NDCs to the participating-manufacturer file to determine whether or
                   not the associated manufacturers had Medicaid rebate agreements and
                   were thus required to report ASPs.
                   Identifying Part B Drug NDCs Not Listed in the Background File. For the
                   87 sampled HCPCS codes, we also identified NDCs with unreported ASPs
                   that met the definition of a HCPCS code but were not included in the
                   background file. Using Red Book and the National Drug Data File, we
                   developed a list of all NDCs associated with the 87 HCPCS codes and
                   matched this list against the background file. For NDCs that appeared in
                   the compendia but not the background file, we used other external
                   resources (such as the HCPCS Code Level II Reference Book) to determine
                   whether the NDC should have been listed in the background file. Please
                   see Appendix B for a detailed description of this comparison.
                   Identifying NDCs with ASPs Reported by Manufacturers Without Rebate
                   Agreements. For all 539 HCPCS codes, we used the background file and
                   the manufacturer file to determine the number of manufacturers that did
                   not have rebate agreements yet still submitted ASPs in the third quarter of
                   2012. Although manufacturers without rebate agreements are not required
                   to report ASPs, such reporting helps ensure that CMS has the information
                   needed to calculate payment amounts that are reflective of all sales in the


                   14
                     We excluded HCPCS codes that represent Not Otherwise Classified (NOC) drugs.
                   15
                     We initially selected 100 HCPCS codes with the highest total expenditures in 2012
                   (constituting 95 percent of spending). We removed 3 of the 100 codes because they were
                   paid for on the basis of average wholesale prices, 5 codes because they were priced by
                   individual Medicare contractors, and 5 codes because they represented NOC drugs.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   5
                   marketplace. We estimated the effect on payment amounts if these
                   manufacturers had chosen not to report ASPs that quarter.16
                   Assessing the Accuracy and Validity of ASP Data in CMS’s ASP Files. We
                   identified any NDCs for which the product information (e.g., strength,
                   package size, and package quantity) listed in the third-quarter 2012 ASP
                   background and crosswalk files did not match the information published in
                   the national drug compendia. We used external sources, such as
                   manufacturer Web sites, to resolve any conflicts between CMS’s files and
                   the compendia. Using this product information, we also verified CMS’s
                   conversions of NDC units to HCPCS units for each code. Incorrectly
                   converted units could result in inaccurate Medicare payment amounts and
                   beneficiary coinsurance. In addition, many Medicaid State agencies use
                   CMS’s conversions on the crosswalk file to adjust the HCPCS units listed
                   on Medicare “crossover” claims.17
                   Assessing Improvements in CMS’s ASP-Related Processes. We reviewed
                   CMS policies and surveyed CMS officials to determine whether the
                   agency had automated manufacturer ASP submissions, as recommended
                   by OIG, or had made other improvements to its collection, entry, and
                   verification processes since the publication of OIG’s earlier report.18
                   Limitations
                   We did not determine whether manufacturers’ calculations of ASPs were
                   correct. In addition, we did not verify the accuracy or completeness of
                   drug product information listed in the national drug compendia, the FDA
                   Web site, or in any of the other sources we used to evaluate CMS’s ASP
                   files. We also did not verify that NDCs listed in the compendia
                   represented drugs that were actually manufactured and sold in the third
                   quarter of 2012. Findings related to the purposive sample of
                   87 high-expenditure HCPCS codes cannot be generalized to all Part B
                   drug HCPCS codes paid on the basis of ASPs in 2012.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.


                   16
                      To do this, we removed any “nonrequired” NDCs (i.e., NDCs for which manufacturers
                   were not required to report ASPs) and recalculated the volume-weighted ASP for each
                   HCPCS code. We then calculated the percentage difference between the actual payment
                   amount and new payment amount.
                   17
                      “Crossover” claims are claims in which both Medicare and Medicaid pay a portion.
                   Incorrect conversions are a frequent source of Medicaid drug rebate disputes.
                   18
                      OIG, Average Sales Prices: Manufacturer Reporting and CMS Oversight,
                   OEI-03-08-00480, February 2010.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   6
                      FINDINGS
                      At least one-third of manufacturers did not submit
                      ASPs for some of their Part B drugs in the third
                      quarter of 2012, despite being required to do so
                      In the third quarter of 2012, at least 207 manufacturers of Part B drugs
                      were operating under Medicaid drug rebate agreements and were thus
                      required to report ASPs.19 At least 74 of these manufacturers did not
                      report ASPs for one or more of their Part B NDCs that quarter (see
                      Table 1).
Table 1: Impact of Nonreporting by Manufacturers With Rebate Agreements
                                                      Number of                                                Number of Affected
 Presence in Background File                                                     Number of NDCs
                                                   Manufacturers                                                  HCPCS Codes
 NDC listed in background file,
                                                                  63                             176                                80
 but ASP not reported
 NDC not listed in background
 file but met HCPCS code                                          21                               81                               17
 definition (from sample)

 Overlap in above categories                                    (10)                              (0)                              (4)


 Totals                                                           74                             257                                93

Source: OIG analysis of CMS’s third-quarter 2012 background file, national drug compendia, CMS’s MDRP-participating manufacturer file,
the HCPCS Code Level II Reference Book, and external Web sites.

                      Sixty-three manufacturers that had rebate agreements did not
                      report ASPs for one or more NDCs listed in the third-quarter
                      2012 background file
                      In the third quarter of 2012, 63 manufacturers did not report ASPs for
                      176 NDCs listed in the background file (6 percent of the total number of
                      required NDCs in the background file) despite being required to do so.
                      The majority of manufacturers associated with the missing ASPs failed to
                      report for only a small percentage and/or small number of their NDCs.20, 21
                      However, 24 manufacturers that had rebate agreements did not report
                      ASPs for any of their NDCs listed in the third-quarter 2012 background
                      file.


                      19
                         We use the term “at least” throughout the first two findings because a portion of the
                      total number of manufacturers in question was identified through our purposive sample of
                      high-expenditure HCPCS codes. Because we cannot extrapolate this sample to all
                      HCPCS codes, there may be additional manufacturers of Part B drugs that we did not
                      identify.
                      20
                         For example, one manufacturer failed to report ASPs for only 20 of its 304 NDCs (i.e.,
                      7 percent). Another manufacturer failed to report ASPs for one of its NDCs but had only
                      two NDCs in the marketplace that quarter (i.e., 50 percent).
                      21
                         As a result, the Medicare payment amount for 80 of the associated HCPCS codes did
                      not reflect all market prices.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)                       7
                   At least 21 manufacturers that had rebate agreements should
                   have reported ASPs for additional NDCs not listed in CMS’s
                   background file
                   Based on our purposive sample of high-expenditure drugs,
                   21 manufacturers that had rebate agreements should have reported ASPs
                   for 81 additional NDCs not listed in the third-quarter 2012 background
                   file.22, 23 Because this portion of our analysis reflects only a subset of
                   high-expenditure drugs, there are likely other NDCs for which
                   manufacturers have never reported the required ASPs. This would result
                   in additional HCPCS codes having payment amounts that are not
                   reflective of all marketplace sales prices.
                   At least 45 manufacturers were not required to report
                   ASPs for 443 Part B NDCs in the third quarter of 2012
                   Current law requires manufacturers to report ASPs to CMS only if they
                   have signed a Medicaid drug rebate agreement. However, for many
                   reasons, not all manufacturers of Part B drugs participate in the rebate
                   program.24 In the third quarter of 2012, at least 45 manufacturers of Part B
                   drugs did not have rebate agreements and thus were not required to report
                   ASPs for any of their NDCs.
                   That quarter, 22 of the 45 manufacturers that did not have
                   rebate agreements voluntarily reported ASPs
                   In the third quarter of 2012, 22 manufacturers reported ASPs for 272 of
                   their 274 Part B NDCs despite not being required to do so under current
                   law. Manufacturers reported ASPs for an additional 73 products
                   represented by alternative IDs rather than NDCs. 25 ASPs associated with
                   these NDCs and alternative IDs were included in payment amount
                   calculations for 86 HCPCS codes.
                   Payment amounts for 36 of 86 HCPCS codes were calculated solely on the
                   basis of ASPs submitted by manufacturers that did not have rebate
                   agreements. If these manufacturers had elected not to report ASPs for


                   22
                      Ten manufacturers are included among the 63 with NDCs in the background file for
                   which ASPs were not reported in the third quarter of 2012. 

                   23
                      These NDCs matched the definition of 17 HCPCS codes included in our purposive 

                   sample of 87 high-expenditure drugs selected for additional review. 

                   24
                      For example, manufacturers of products paid as drugs under Part B but considered

                   devices and not drugs by Medicaid and FDA typically do not have rebate agreements and 

                   therefore are not required to report ASPs. 

                   25
                      Because these products did not have NDCs (and thus no labeler codes), we could not 

                   determine the exact number of manufacturers represented. The products were skin

                   substitutes (used to aid in wound closure and wound healing) and certain injections for 

                   knee pain, which are not classified as drugs by FDA.



Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   8
                   their products, Part B payment amounts for the 36 HCPCS codes could not
                   have been calculated on the basis of ASPs. CMS would typically have
                   calculated payment amounts using list prices published in compendia,
                   which OIG has found do not accurately reflect actual market prices.26, 27
                   For example, NDCs associated with a high-expenditure “device” HCPCS
                   code representing hyaluronan (HCPCS code J7321) were associated solely
                   with manufacturers that did not have rebate agreements. If these
                   manufacturers had chosen not to report ASPs for their NDCs in the third
                   quarter of 2012, payment amounts for the HCPCS code could not have
                   been based on ASPs. Part B spent a total of $67 million for this HCPCS
                   code in 2012. If the payment amount were calculated on the basis of
                   WACs, Part B expenditures would have substantially increased because
                   the associated WACs were much greater than the ASPs.28
                   Payment amounts for 50 of 86 HCPCS codes were calculated on the basis
                   of third-quarter 2012 ASPs submitted both by manufacturers that had
                   rebate agreements and by manufacturers that did not. If the
                   manufacturers without rebate agreements had chosen not to report ASPs
                   for their products, payment amounts for the corresponding HCPCS codes
                   could have still been based on ASPs (because other manufacturers were
                   still required to report). However, the payment amounts for 5 of the codes
                   would have increased (between 3 and 40 percent) and those for 7 of the
                   codes would have decreased (between 1 and 49 percent). For the
                   remaining 38 codes, payment amounts would have remained the same.
                   The remaining 23 manufacturers did not report ASPs for any of
                   their NDCs in the third quarter of 2012
                   At least 23 manufacturers that did not have rebate agreements did not
                   report ASPs for any Part B NDCs in third quarter of 2012.29 If these
                   manufacturers had been required to report ASPs that quarter, CMS could
                   have received data for 169 additional NDCs associated with 36 HCPCS
                   codes. In total, 124 of the 169 “nonrequired” NDCs were already listed in
                   the ASP background file. The remaining 45 NDCs were not listed in the

                   26
                      CMS used published prices to set payment amounts for four HCPCS codes in the first
                   quarter of 2013 because none of the manufacturers were required to report ASPs and
                   (1) the manufacturers did not submit ASPs; (2) the manufacturers submitted unusable
                   ASPs; or (3) the NDCs were obsolete, near obsolete, or represented terminated drugs. In
                   three of the cases CMS used wholesale acquisition costs (WACs) as the basis for
                   payment amounts, and in the other case it used average wholesale prices.
                   27
                      OIG, Medicaid Drug Price Comparisons: Average Manufacturer Price to Published
                   Prices, OEI-05-05-00240, June 2005.
                   28
                      The WACs of associated NDCs exceeded ASPs by between 52 and 96 percent.
                   29
                      Twenty of the twenty-three were repackagers. Repackagers purchase drugs from
                   manufacturers to resell in smaller packages. Many do not participate in the MDRP, and
                   their drugs are not eligible for Federal financial participation under Medicaid.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   9
                   ASP background file but matched the definition of at least one
                   high-expenditure HCPCS code.
                   For a small number of drugs, inaccuracies in CMS’s
                   ASP files may have affected Medicare payments
                   The product information (e.g., package sizes and billing units per package
                   size) listed in the background and crosswalk files for an NDC sometimes
                   differed from the product information listed in the national compendia.30
                   After performing numerous checks, we believe that inaccurate product
                   information for 27 NDCs may have affected payment amount calculations
                   for 23 HCPCS codes in the third quarter of 2012. For 19 of these
                   23 codes, the discrepancies had little impact on Part B payments, with the
                   overall effect on first-quarter 2013 expenditures being less than $7,500 per
                   code.31 For the remaining four codes, the impact was likely more
                   substantial, ranging from $15,000 to $203,000 per code in that quarter.
                   For example, because of incorrectly listed package sizes and package
                   quantities for NDCs crosswalked to HCPCS code Q3025, Medicare may
                   have inadvertently underpaid providers by 9 percent in the first quarter of
                   2013; the Part B payment amount for the HCPCS code should have been
                   $319.09 instead of $291.64. Part B expenditures for this code were
                   $2.2 million in the first quarter of 2013. In contrast, Medicare apparently
                   overpaid providers by 12 percent for HCPCS code J1170 in the first
                   quarter of 2013 as a result of an incorrect unit conversion for one NDC.
                   Medicare should have paid providers $1.42 per unit instead of $1.61 per
                   unit. Part B expenditures for this code were $898,330 that quarter.
                   For an additional 161 NDCs, potential discrepancies in the ASP files had
                   zero effect on payment amounts—in many cases, because of CMS’s
                   quality control efforts. For example, half of the 161 NDCs represented
                   contrast agents, for which manufacturers have consistently reported their
                   ASPs by vial rather than by NDC. CMS took this reporting anomaly into
                   account when calculating the payment amount.32 In other cases, the NDCs
                   in question were excluded altogether from the payment amount
                   calculations or the data was incorrect in the crosswalk file but correct in
                   the background file.

                   30
                      When there were differences in the product information listed in CMS’s files and the
                   national compendia, we reviewed information from other sources (such as drug package
                   labels from FDA’s Web site) to determine the reasons for the discrepancies.
                   31
                      In these cases, either the “corrected” payment amount changed only slightly (less than
                   1 percent for 9 codes) and/or the HCPCS code was associated with minimal expenditures.
                   32
                      For example, an NDC may represent 10 vials of a drug, but the manufacturer reports
                   the ASP for a single vial. If CMS recognizes this, the background file would then
                   “incorrectly” list a package size of 1 rather than 10 so that the issue is accounted for
                   when CMS calculates the volume-weighted ASP for the HCPCS code.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   10
                   Because the crosswalk file is often used by State Medicaid agencies when
                   invoicing manufacturers for rebates, inaccuracies in the published
                   crosswalk file may impact the amount of rebates paid to States even when
                   payment amounts were not affected. However, CMS staff informed us
                   that users of the crosswalk file, such as State Medicaid agencies, should be
                   aware that crosswalk data are intended solely for Part B drug payment
                   purposes and that some of the data as presented in the crosswalk may not
                   be suitable for other uses.
                   CMS has improved its ASP-related processes and
                   procedures; however, challenges remain
                   A previous OIG study found that CMS’s procedures for collecting,
                   entering, and verifying manufacturer-reported ASP data for Part B drugs
                   reduce efficiency and lead to potential errors. As a result, OIG
                   recommended improvements to ASP-related processes, including the
                   development of an automated system for submitting ASP data.33 CMS has
                   made progress in addressing OIG’s recommendation; however, certain
                   areas of concern still remain.
                   CMS has yet to implement an automated system for
                   manufacturer submission of ASP data
                   Unlike with its system for reporting AMP data under Medicaid, CMS does
                   not have a fully automated system for collecting ASP data from
                   manufacturers. Previously, we found that manufacturers instead typically
                   mailed disks containing ASP data to CMS.34 CMS staff then manually
                   transferred every data element from the submissions into the ASP files.
                   CMS now gives manufacturers the option of emailing the data to agency
                   staff. CMS also provides manufacturers with a template to complete prior
                   to submitting ASP data. CMS staff no longer manually transfer
                   manufacturer-reported data, but instead use software such as Microsoft
                   Excel and SAS to partially automate importation.
                   When we surveyed CMS in August 2013, the agency expected an
                   automated system for ASP submission to be ready for manufacturer testing
                   in the first quarter of 2014, with full implementation in the second quarter
                   of the year. However, as of March 2014, CMS had not begun testing the
                   automated system. Rather, the project was still in the pre-production
                   phase and prototypes had been presented to CMS staff. CMS staff stated
                   that testing with manufacturers had been postponed because of budget
                   constraints and that the agency could not commit to a new implementation

                   33
                      OIG, Average Sales Prices: Manufacturer Reporting and CMS Oversight, 

                   OEI-03-08-00480, February 2010. 

                   34
                      Ibid. 



Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   11
                   date at that time. According to CMS staff, the agency may not wish to
                   preclude alternative methods for submitting ASP data once the new system
                   is implemented, meaning that manufacturers may still have the option of
                   sending files by mail or email.
                   CMS staff still conduct many data validation procedures
                   manually
                   The efficiency of the ASP collection process should be substantially
                   improved by an automated data collection system similar to the one that
                   manufacturers use to report AMPs. However, once the data are submitted,
                   CMS staff will still need to validate the manufacturer-reported data, group
                   the appropriate NDCs into their associated HCPCS codes, and calculate
                   volume-weighted ASPs.
                   According to CMS, staff manually check manufacturer-reported ASPs
                   (with the assistance of Microsoft Excel and SAS) and seek clarification
                   from manufacturers that submitted ASP data with certain errors.35 If CMS
                   receives corrected data, the agency incorporates it into payment amount
                   calculations as soon as it is available. If data are not resubmitted prior to
                   the payment-amount files being put into use by claims processing
                   contractors, CMS may reissue new files to be used by pricing contractors.
                   CMS staff stated that although the planned automated reporting system
                   will better structure some of the data verification procedures, some manual
                   checks are unlikely to be fully automated because they require
                   interpretation using specialized experience and knowledge of
                   pharmaceutical packaging and clinical drug use.
                   CMS does not maintain a comprehensive list of manufacturers
                   that are required to submit ASP data
                   All drug manufacturers that have rebate agreements are required to report
                   pricing data to CMS. However, a 2010 OIG study found that CMS does
                   not have a list of all manufacturers that have rebate agreements and
                   produce Part B drugs.36 CMS still does not maintain such a list. Instead,
                   CMS’s quarterly background files list only those NDCs for which
                   manufacturers have previously reported ASPs and NDCs that have been
                   identified by CMS contractors.


                   35
                      Staff check ASP data for issues including, but not limited to, incorrect NDCs; aberrant
                   ASPs and number of units sold; incorrect product information; terminated NDCs;
                   over-the-counter products; non-FDA-approved products; and non-Part B products. CMS
                   seeks clarification if manufacturers submit ASPs with the following errors: incorrect
                   NDCs; aberrant number of units sold and ASPs; and incorrect product information.
                   36
                      OIG, Average Sales Prices: Manufacturer Reporting and CMS Oversight,
                   OEI-03-08-00480, February 2010.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   12
                   CONCLUSION AND RECOMMENDATIONS
                   When setting payment amounts for drugs covered under Medicare Part B,
                   CMS relies on ASP data and product information reported by
                   manufacturers. Our findings—like those of OIG’s previous studies in this
                   area—demonstrate that a number of manufacturers are not reporting the
                   required ASP data for all of their drugs. Furthermore, because ASP
                   reporting requirements are linked to Medicaid drug rebate agreements,
                   some manufacturers of Part B drugs are not required to submit ASP data
                   because they do not have a rebate agreement in effect. Even when ASPs
                   were reported, we identified a small number of instances in which product
                   and pricing information listed in CMS’s background and crosswalk files
                   were incorrect.
                   Unreported ASPs (whether required or not) and incorrect product and
                   pricing information may result in Medicare payment amounts that are
                   inaccurate and not reflective of all manufacturer sales prices. To improve
                   the process for collecting ASP data and calculating ASP-based payment
                   amounts, CMS is developing an automated system for manufacturer
                   submissions, as previously recommended by OIG. However, even when
                   this system has been implemented, certain issues may still present the
                   potential for errors and inefficiencies.
                   Therefore, we recommend that CMS:
                   Continue to assist OIG in identifying and penalizing
                   manufacturers that do not meet ASP reporting requirements
                   Pursuant to the Act, manufacturers may face CMPs or suspension of their
                   rebate agreements if they fail to report ASP data in the required timeframe.
                   CMS has worked with OIG to identify manufacturers that do not submit
                   pricing data in a timely fashion, and OIG has initiated actions against
                   certain manufacturers that failed to satisfy their submission requirements.
                   Seek a legislative change to directly require all manufacturers
                   of Part B drugs to submit ASPs
                   The ASPs included in payment amount calculations for 86 HCPCS codes
                   in the third quarter of 2012 were associated with manufacturers that were
                   not required to provide ASPs under the current system because they did
                   not have Medicaid rebate agreements in effect. Payment amounts for
                   36 of the 86 HCPCS codes were based solely on data reported by
                   manufacturers that did not have rebate agreements, meaning that payment
                   amounts would not be calculated on the basis of ASPs if the manufacturers
                   chose to stop reporting ASPs for their Part B-covered products. Instead,
                   payment amounts would be calculated on the basis of other pricing
                   methodologies that do not reflect actual marketplace prices.


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   13
                   Also, additional manufacturers of Part B drugs are not submitting ASP
                   data because they do not have a rebate agreement in effect, yet their
                   products meet the definition of at least one Part B HCPCS code. Under
                   the current system, CMS has no recourse to obtain pricing data from these
                   manufacturers, even though this nonreporting results in Part B payment
                   amounts that are not reflective of all marketplace prices.
                   As OIG similarly recommended in 2010, legislation that would directly
                   require all manufacturers of Part B drugs to submit ASPs, regardless of
                   whether the manufacturers have Medicaid drug rebate agreements in
                   effect, should be included in the President’s budget for a future year. Any
                   provision should also include corresponding penalty language that mirrors
                   the language in section 1927(c) of the Act to clearly allow for enforcement
                   actions against manufacturers who fail to timely report information or
                   provide false information. This would ensure that Medicare payment
                   amounts are reflective of all Part B drugs.
                   Ensure the accuracy of product information for NDCs listed in
                   the background and crosswalk files
                   According to our analysis, CMS’s background and crosswalk files listed
                   incorrect product information for a small portion of NDCs in the third
                   quarter of 2012. In the vast majority of these cases, payment amounts
                   were either unaffected or minimally affected. However, for 4 HCPCS
                   codes, incorrect product information had a larger impact, ranging from
                   $15,000 to $203,000 per quarter. We have provided CMS with a list of the
                   NDCs for which we believe product information may be incorrect.
                   Finalize the implementation of automated ASP-related
                   procedures by using AMP-related processes as a model, and
                   subsequently require all manufacturers to submit ASPs
                   through the automated system
                   When manufacturers electronically enter drug product data and AMP data
                   for each of their covered NDCs into the automated system used in
                   Medicaid, the system electronically reviews manufacturers’ pricing
                   submissions for data errors, notifies manufacturers about potential
                   problems, and may reject files with detected errors. In other words, the
                   processes for collection, entry, and validation of data occur simultaneously
                   upon data collection with minimal manual steps for CMS staff, allowing
                   for more timely and accurate Medicaid payment amount calculations.
                   In 2010, OIG recommended that CMS establish automated processes for
                   collecting ASP data to, among other goals, limit the possibility of data
                   entry errors and to increase efficiency. CMS concurred with the
                   recommendation and stated that it was working with contractors to
                   improve the efficiency of ASP-related processes. As of March 2014, an


Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   14
                   automated system for the collection of ASP data was still in the
                   development phase and CMS could not estimate when the system would
                   actually be implemented.
                   Furthermore, according to CMS staff, the agency may still allow
                   manufacturers to submit ASP data files by mail or email even when the
                   automated system has been fully implemented and functions reliably. This
                   could greatly limit the system’s efficiency and ability to prevent potential
                   errors. CMS also stated that it has not determined the extent to which data
                   verification will be automated, but there will likely be no substantial
                   changes to the overall checks. According to CMS, many of the processes
                   that are automated in AMP collection, such as verifying NDCs prior to
                   accepting the associated pricing data, may not be automated in ASP
                   collection.
                   Many manufacturers that submit ASPs already submit AMPs and thus are
                   familiar with the concept of an automated price-reporting system.
                   Therefore, we believe that CMS should finalize the implementation of
                   automated ASP-related processes as soon as possible and should use the
                   AMP data system as a model for automated ASP-related systems.




Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   15
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS concurred with our first, third,
                   and fourth recommendations. CMS stated that it will continue to assist
                   OIG with ongoing efforts to identify and penalize manufacturers that do
                   not meet ASP reporting requirements. Further, the agency stated that it
                   either has corrected or will correct the product information errors OIG
                   identified. Finally, CMS stated that it is continuing its plans to implement
                   an automated system for collecting ASPs. However, the agency has not
                   yet set an implementation date and is reluctant to eliminate manual data
                   collection processes.
                   In nonconcurring with our second recommendation, CMS stated that
                   a proposal to require manufacturers of Part B drugs to submit ASPs was
                   not included in the annual President’s budget. We continue to recommend
                   that CMS draft, and submit for review, such a legislative proposal for
                   consideration for inclusion in future budget and legislative agendas.
                   While CMS cannot dictate what legislative proposals are included in the
                   President’s budget, CMS does have the authority to develop legislative
                   proposals for Medicare.
                   For the full text of CMS’s comments, see Appendix C.




Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   16
                   APPENDIX A
                   Descriptions and 2012 Medicare Part B Spending for Sample of
                   87 High-Expenditure HCPCS Codes
       HCPCS Code                                    Description            HCPCS Dosage       2012 Part B Spending
       J0129                                   Abatacept injection                    10 mg             $206,136,065
       J0152                                  Adenosine injection                     30 mg              $23,708,630
       J0475                                    Baclofen injection                    10 mg              $19,208,292
       J0490                                 Belimumab injection                      10 mg              $20,634,278
       J0585                               Botulinum toxin type a                     1 unit            $127,779,481
       J0641                             Levoleucovorin injection                    0.5 mg              $57,932,049
       J0718                         Certolizumab pegol injection                      1 mg              $32,045,412
       J0775                      Collagenase, clost hist injection                 0.01 mg              $18,281,400
       J0878                                 Daptomycin injection                      1 mg              $23,614,809
       J0881                                     Darbepoetin alfa                     1 mcg             $224,915,934
       J0885                                          Epoetin alfa                1000 units            $233,726,603
       J0894                                  Decitabine injection                     1 mg              $85,857,807
       J0897                                Denosumab injection                        1 mg             $347,264,989
       J1300                                 Eculizumab injection                     10 mg              $44,153,474
       J1325                               Epoprostenol injection                    0.5 mg              $23,924,996
       J1440                                   Filgrastim injection                300 mcg               $31,108,731
       J1441                                   Filgrastim injection                480 mcg               $73,962,548
       J1453                               Fosaprepitant injection                     1 mg              $30,406,416
       J1459                  Immune globulin (privigen) injection                  500 mg               $17,461,364
       J1559                                    Hizentra injection                   100 mg             $131,956,964
       J1561                                   Gamunex injection                     500 mg              $87,051,809
       J1568                                    Octagam injection                    500 mg              $43,113,356
       J1569                          Gammagard liquid injection                    500 mg              $100,888,948
       J1745                                   Infliximab injection                   10 mg             $704,243,666
       J1786                               Imuglucerase injection                   10 units             $19,257,388
       J2260                            Milrinone lactate injection                    5 mg              $97,917,244
       J2323                                Natalizumab injection                      1 mg              $96,127,091
       J2353                            Octreotide depot injection                     1 mg             $161,290,474
       J2357                                Omalizumab injection                       5 mg              $74,723,773
       J2469                 Palonosetron hydrochloride injection                    25 mcg             $142,771,327
       J2505                               Pegfilgrastim injection                     6 mg             $642,878,567
       J2778                               Ranibizumab injection                     0.1 mg            $1,220,360,809
       J2785                              Regadenoson injection                      0.1 mg             $126,757,965
       J2796                                Romiplostim injection                    10 mcg              $62,699,749
       J3262                                 Tocilizumab injection                     1 mg              $66,021,878
       J3285                                 Treprostinil injection                    1 mg             $158,706,362
       J3315                                  Triptorelin pamoate                   3.75 mg              $17,143,907
       J3487                                      Zoledronic acid                      1 mg             $163,850,642
       J3488                                     Reclast injection                     1 mg             $115,147,875
       J7187                                  Humate-P, injection                       1 IU             $16,768,045
       J7189                                            Factor viia                   1 mcg             $104,920,500
       J7190                                            Factor viii                     1 IU             $30,207,228
       J7193                           Factor IX non-recombinant                        1 IU             $17,760,145
                                                                                        (continued on next page)



Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)        17
                   Descriptions and 2012 Medicare Part B Spending for Sample of
                   87 High-Expenditure HCPCS Codes (continued)
       HCPCS Code                                        Description             HCPCS Dosage        2012 Part B Spending
       J7195                                 Factor IX recombinant                           1 IU             $43,404,226
       J7198                                             Anti-inhibitor                      1 IU             $40,190,843
       J7308                     Aminolevulinic acid hydrochloride                        354 mg              $19,006,023
       J7321                             Hyalgan/supartz injection                       per dose             $67,142,161
       J7323                                        Euflexxa injection                   per dose             $47,210,237
       J7324                                       Orthovisc injection                   per dose             $56,618,033
       J7325                               Synvisc or Synvisc-One                            1 mg            $144,640,590
       J7507                                          Tacrolimus oral                        1 mg            $195,177,053
       J7517                            Mycophenolate mofetil oral                        250 mg              $81,812,303
       J7518                                       Mycophenolic acid                      180 mg             $111,639,367
       J7520                                            Sirolimus oral                       1 mg             $48,927,996
       J7605                       Arformoterol inhalation solution                       15 mcg             $110,200,481
       J7606               Formoterol fumarate inhalation solution                        20 mcg              $54,001,470
       J7613                               Albuterol non-comp unit                           1 mg             $26,604,246
       J7620                    Albuterol and ipratropium bromide                  2.5 mg/0.5 mg              $45,068,105
       J7626                        Budesonide inhalation solution                  up to 0.50 mg            $214,727,879
       J7682                    Tobramycin non-compounded unit                            300 mg              $28,084,657
       J7686                         Treprostinil inhalation solution                     1.74 mg            $127,959,381
       J9025                                   Azacitidine injection                         1 mg            $141,956,248
       J9033                               Bendamustine injection                            1 mg            $160,131,900
       J9035                                Bevacizumab injection                          10 mg             $624,753,554
       J9041                                   Bortezomib injection                        0.1 mg            $278,371,303
       J9043                                  Cabazitaxel injection                          1 mg             $51,432,612
       J9055                                   Cetuximab injection                         10 mg             $153,516,065
       J9070                          Cyclophosphamide injection                          100 mg              $18,900,266
       J9171                                       Docetaxel injection                       1 mg            $123,393,142
       J9179                             Eribulin mesylate injection                       0.1 mg             $31,799,237
       J9201                  Gemcitabine hydrochloride injection                         200 mg              $44,953,525
       J9217                        Leuprolide acetate suspension                          7.5 mg            $233,311,653
       J9228                                   Ipilimumab injection                          1 mg             $85,176,620
       J9263                                               Oxaliplatin                     0.5 mg            $308,803,693
       J9264                               Paclitaxel protein bound                          1 mg             $86,545,808
       J9303                                Panitumumab injection                          10 mg              $30,394,295
       J9305                                  Pemetrexed injection                         10 mg             $291,644,303
       J9310                                       Rituximab injection                    100 mg             $876,309,447
       J9330                                 Temsirolimus injection                          1 mg             $20,141,980
       J9355                                 Trastuzumab injection                         10 mg             $272,619,113
       J9395                                   Fulvestrant injection                       25 mg              $96,635,702
       Q0138                              Ferumoxytol, non-ESRD                              1 mg             $21,218,364
       Q2037                                          Fluvirin vaccine                     0.5 ml             $60,260,767
       Q2038                                         Fluzone vaccine                       0.5 ml             $40,468,584
       Q2043                                             Sipuleucel-T     minimum 50 million cells           $156,176,155
       Q4074                             Iloprost inhalation solution                up to 20 mcg             $59,385,872
       Q4106                            Dermagraft skin substitute                      1 SQ CM               $22,869,459
       Total                                                                                              $11,798,273,705

         Source: OIG analysis of 2012 PBAR data.




Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)            18
                   APPENDIX B
                   Detailed Methodology for Identifying Part B Drug NDCs Not
                   Listed in the Background File
                   CMS’s background file generally includes an NDC only if an ASP for the
                   drug has been previously reported by the manufacturer. Therefore, in
                   addition to determining the number of NDCs listed in the third-quarter
                   background file for which ASPs were not reported, we also identified
                   NDCs that met the definition of a HCPCS code but were not included in
                   the background file. Because of the complex steps required to identify
                   these NDCs, we focused this segment of the analysis on our purposive
                   sample of 87 high-expenditure HCPCS codes.
                   Using CMS’s third-quarter background file, we first created a list of all
                   known NDCs associated with the 87 HCPCS codes. For these NDCs, we
                   then obtained the generic formulation code (GFC) from Red Book and the
                   generic code number (GCN) from the National Drug Data File. GFCs
                   and GCNs are unique six-digit codes that identify drugs with common
                   active ingredients, master dosage forms, strengths, and routes of
                   administration. A HCPCS code may be associated with more than one
                   GFC or GCN, and multiple HCPCS codes may be associated with the
                   same GFC or GCN. We developed a list of all NDCs in Red Book and the
                   National Drug Data File with GFCs or GCNs associated with the
                   87 HCPCS codes and identified the NDCs that were not included in the
                   background file. We used the HCPCS Code Level II Reference Book to
                   confirm that each of the NDCs we identified actually met the definition of
                   the HCPCS code.
                   Manufacturers associated with the remaining NDCs have likely never
                   reported ASPs for the drugs to CMS, even though the NDCs represent
                   drugs that are in the market and meet the definition of at least one Part B
                   HCPCS code. We matched the labeler codes for these NDCs to the
                   MDRP-participating manufacturer file to determine whether the associated
                   manufacturers were required to report ASPs. We also counted the number
                   of manufacturers that did not have rebate agreements to estimate the
                   additional number that would be required to report ASP data if previous
                   OIG recommendations had been implemented.




Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   19
                      APPENDIXC
                      Agency Comments




                                                                                        Centers tor Medicare & Medicaid Se rvi ces


                                                                                         Administrator
                                                                                         Washington, DC 20201




             DATE:             JUN 19 Z014

              TO: 	          Daniel R. Levinson
                             Inspector General
                                                /S/
              FROM : 	       Marilyn Tavtnner
                             Administratm1

              SUBJECT: Office oflnspector General (OIG) Draft Report: Limitations in Manufacturer
              Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)


              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to re view and
              comment on the above subject OIG draft report. OIG's objectives were to determine whether
              manufacturers reported average sales prices (ASPs) for all Part B drugs in the third quarter of
              2012 ; to determine the effect on ASP reporting if all manufacturers of Part B drugs were required
              to submit ASPs ; to assess the validity and accuracy of data contained in CMS ' s ASP files ; and to
              determine whether CMS has improved its process for collecting and analyzing ASPs since the
              publication ofOIG's earlier report.

              The OIG compared CMS data from internal ASP data files and the public ASP crosswalk file
              against national price compendia data. CMS ' s files were associated with payment limits that
              were in effect during the first quarter of2013 . Using these files, OIG determined how many
              manufacturers did not report ASP data to CMS, and OIG determined if CMS and compendia
              information for specific drug products as identified by National Drug Codes (NDCs) were
              consistent. OIG also conducted a survey of CMS 's policies to determine if ASP data collection
              processes were being improved.

              Based on the data comparison described above , OIG determined that up to one-third of
              manufacturers with Medicaid drug rebate agreements (that is, manufacturers that must report
              ASP data to CMS) did not submit ASP data for at least some of their Part B drugs. OIG also
              noted that 45 manufacturers without Medicaid drug rebate agreements submitted ASP data .
              OIG ' s assessment ofCMS ' s ASP-related processes and procedures found improvements
              compared to previous studies. However, OIG also found potentially inaccurate product
              information for 27 NDCs that may have affected ASP payment limit calculations. OIG believes
              that little impact on payment amounts has resulted in most of these cases. However, for NDCs
              associated with four Healthcare Common Procedural Coding System (HCPCS ) codes, OIG
              estimated a payment impact ranging from $15,000 to $203 ,000 per code during the study period .
              The report also discussed the impact of information that is published on the ASP cro sswalk .




Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)                          20
Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   21
Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   22
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Dave Tawes, Regional
                   Inspector General for Evaluation and Inspections in the Baltimore regional
                   office.
                   Bahar Adili served as the lead analyst for this study. Central office staff
                   who provided support include Mandy Brooks, Althea Hosein,
                   Meghan Kearns, and Christine Moritz.




Limitations in Manufacturer Reporting of Average Sales Price Data for Part B Drugs (OEI-12-13-00040)   23
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
